                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                        OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




                Our office reviewed the subject's1 proposal as a      of a broader proactive review. Our
        review determined that the subject's proposal2 contained a small amount of copied text. The PI
        and CO-PI'S attributed the plagiarism to a "lack of clarity" by the authors and cutting and pasting
        errors. The PI also reported that the institution3had implemented a plan to ensure that future
        NSF proposals would not contain plagiarized material. The institution plans to review future
        proposals utilizing a checklist of references, independent reviewers, and computer software
        designed to find copied text.

               Given the de minimis amount of copied text and the institution's response policy we
        declined to take further action. A warning letter was sent to the PI and the CO-PI'S, directing
        them to be more careful in the future and emphasizing NSF's expectations regarding scholarship
        and proposal preparation.

                  Accordingly, this case is closed.




NSF 01G Form 2 (1 1/02)
